     Department of Homeland Security

     ��������������������������



  The USCG's Oversight of Recommendations from 

      Deepwater Horizon After Action Reports 





OIG-14-42                            February 2014

                          OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security
                                Washington, DC 20528 / www.oig.dhs.gov


                                    FEB 21 2014 
                                               
MEMORANDUM FOR:              Rear Admiral Stephen P. Metruck  
                             Assistant Commandant for Resources and 
                                 Chief Financial Officer 
                             United States Coast Guard 
                              
                             Rear Admiral Peter J. Brown  
                             Assistant Commandant for Response Policy 
                             United States Coast Guard 
 
FROM:	                       Mark Bell 
                             Acting Assistant Inspector General for Audits 
 
SUBJECT:	                    The USCG’s Oversight of Recommendations from Deepwater 
                             Horizon After Action Reports 
 
Attached for your action is our final report, The USCG’s Oversight of Recommendations from 
Deepwater Horizon After Action Reports. We incorporated the formal and technical 
comments from the Assistant Commandant for Resources and Chief Financial Officer in the 
final report. 
 
The report contains two recommendations aimed at improving the oversight and tracking of 
recommendations in oil spill after action reports and the resultant corrective actions. Your 
office concurred with both recommendations. Based on information provided in your 
response to the draft report, we consider the recommendations resolved. Once your office 
has fully implemented the recommendations, please submit a formal closeout request to us 
within 30 days so that we may close the recommendations. The request should be 
accompanied by evidence of completion of agreed‐upon corrective actions. Please email a 
signed PDF copy of all responses and closeout requests to OIGAuditsFollowup@oig.dhs.gov.  
 
Consistent with our responsibility under the Inspector General Act, we will provide copies of 
our report to appropriate congressional committees with oversight and appropriation 
responsibility over the Department of Homeland Security. We will post the report on our 
website for public dissemination. 
 
Please call me with any questions, or your staff may contact John E. McCoy II, Deputy 
Assistant Inspector General for Audits, at (202) 254‐4100.  
 
Attachment  
                                       OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security


   Table of Contents
   Executive Summary ............................................................................................................ 1

   Background ........................................................................................................................ 2

   Results of Audit .................................................................................................................. 2

              Oversight of Recommendations ............................................................................. 3 

              Responding to and Tracking Recommendations ................................................... 4 

              Addressing Past Recommendations ...................................................................... 7 

              Conclusion .............................................................................................................. 8 

              Recommendations ................................................................................................. 8 

              Management Comments and OIG Analysis ........................................................... 9 


   Appendixes
    

              Appendix A:          Objectives, Scope, and Methodology ........................................... 12 

              Appendix B:          Management Comments to the Draft Report .............................. 13 

              Appendix C:          Summary of Deepwater Horizon After Action Reports ................ 17 

              Appendix D:          Major Contributors to This Report ............................................... 19 

              Appendix E:          Report Distribution ....................................................................... 20 



   Abbreviations
              CGAAP                 Coast Guard After Action Program (United States Coast Guard)
              CG-CPE                Coast Guard Office of Crisis and Contingency Planning and
                                    Exercise Policy (United States Coast Guard)
              CG-MER                Coast Guard Office of Marine Environmental Response Policy
                                    (United States Coast Guard)
              CPS                   Contingency Preparedness System
              DHS                   Department of Homeland Security
              DWH                   Deepwater Horizon
              FOCS                  Federal On-Scene Coordinator
              ISPR                  Incident Specific Preparedness Review
              MISLE                 Marine Information for Safety and Law Enforcement
              NIC                   National Incident Commander
              OIG                   Office of Inspector General
              USCG                  United States Coast Guard

www.oig.dhs.gov                                                                                                                  OIG-14-42 

                           OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Executive Summary
   The April 20, 2010, oil spill that followed the explosion of the Mobile Offshore Drilling
   Unit, Deepwater Horizon, was the largest in United States history. This spill was also the
   first Spill of National Significance—a spill so complex that it required extraordinary
   coordination of Federal, State, local, and responsible party resources to contain and
   clean up the discharge. As the lead Federal agency for oil spill or hazardous material
   incidents in United States coastal waters, the United States Coast Guard (USCG) served
   as the Federal On-Scene Coordinator for response to this oil spill. Seven after action
   reports containing 549 recommendations were issued in the wake of this incident. Our
   objective was to determine whether the USCG’s oversight of recommendations made in
   Deepwater Horizon oil spill after action reports was effective for tracking corrective
   actions.

   Our initial audit objective was to determine whether the USCG had implemented
   Deepwater Horizon after action report recommendations. However, we were unable to
   determine whether the recommendations had been addressed because of
   inconsistencies in the USCG’s process to track progress. Therefore, we sought to
   understand how the USCG tracked after action report recommendations and why the
   USCG had difficulty in providing supporting documentation for the recommendations it
   said were completed.

   The USCG did not provide effective oversight of recommendations made to it in
   Deepwater Horizon after action reports, nor could it provide reasonable assurance that
   corrective actions for the Deepwater Horizon incident addressed the recommendations
   in these after action reports. This occurred because management of the process was not
   fully coordinated and after action report recommendations were not centrally or
   specifically tracked. In addition, according to a USCG after action report, the USCG could
   not be certain that actions resulting from previous oil spills had been implemented, and
   thus, it encountered some of the same issues in response to the Deepwater Horizon
   incident. This may have affected the response to the oil spill and could affect the USCG’s
   response to future disasters.

   The USCG concurrred with both recommendations we made to improve the oversight
   and tracking of recommendations in oil spill after action reports and the resultant
   corrective actions.




www.oig.dhs.gov                                1                                        OIG-14-42

                          OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Background
   According to the USCG, since 1978, it has captured lessons learned and best practices
   identified during contingency exercises and actual events, and it has recommended
   actions to improve its response. The Coast Guard Office of Crisis and Contingency
   Planning and Exercise Policy manages and oversees the Coast Guard After Action
   Program (CGAAP). The USCG, through this program, documents and acts on lessons
   identified in exercises and contingency operations, which are incidents, threats, or
   events requiring capabilities beyond that of normal operations.

   The USCG used various systems to store and retrieve this information until 2003 when it
   launched its database, the Contingency Preparedness System (CPS). The USCG used CPS
   to link its contingency plans, exercise planning, and after action reports. CPS supports
   the CGAAP, and, according to the USCG, this program enables it to positively identify,
   promptly remediate, and learn from problems or issues identified during operations,
   exercises, and training.

   In response to the April 20, 2010 explosion of the Mobile Offshore Drilling Unit,
   Deepwater Horizon (DWH), 7 after action reports, which included 549
   recommendations, were issued. These reports were prepared by the USCG, oil spill
   response and industry experts, and the presidentially-created National Commission on
   the BP Deepwater Horizon Oil Spill and Offshore Drilling. Appendix C contains more
   information on these reports. The recommendations in these reports covered topics
   such as facilitating communications among oil spill response stakeholders and
   establishing or improving prevention and response policies and procedures. According
   to a March 2011 USCG memorandum, DWH after action reports provided perspectives
   and opinions that the USCG could evaluate to “identify further opportunities for
   positive, effective preparedness improvements.”

   Results of Audit
   The USCG did not provide effective oversight of recommendations made to it in DWH
   after action reports, nor could it provide reasonable assurance that corrective actions
   for the DWH incident addressed the recommendations in these after action reports. This
   occurred because management of the process was not fully coordinated and after
   action report recommendations were not centrally or specifically tracked. In addition,
   according to a USCG after action report, the USCG could not be certain that actions
   resulting from previous oil spills had been implemented, and thus, it encountered some
   of the same issues in response to the DWH incident. This may have affected the
   response to the oil spill and could affect the USCG’s response to future disasters.


www.oig.dhs.gov                               2                                       OIG-14-42

                           OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Oversight of Recommendations


           Oversight of recommendations and corrective actions stemming from the DWH
           incident was fragmented and ineffective because the USCG program offices
           responsible for managing the process did not fully coordinate with each other on
           the status of recommendations. According to USCG officials, they did not have
           one central program office to oversee all DWH after action report
           recommendations. USCG officials also said that policy oversight of crosscutting
           issues was addressed by a senior leadership effort to prioritize, assign, and track
           recommendations across multiple offices and directorates. As shown in figure 1,
           several USCG offices, under the Director of Incident Management and
           Preparedness Policy, are responsible for various aspects of the process, including
           oversight and tracking of recommendations. For example, according to USCG
           guidance, the Office of Marine Environmental Response Policy (CG-MER) is
           responsible for developing guidance on applying specific DWH findings and
           recommendations to all levels of the USCG. According to the USCG, three offices
           under CG-MER are tasked with recommendation follow-up. The Office of Crisis
           and Contingency Planning and Exercise Policy (CG-CPE) has oversight of CPS, the
           system of record for after action reports and recommendations. An office under
           CG-CPE—Exercise, Evaluation, and Analysis—is responsible for the CGAAP.
           Interviews with some personnel involved in the process showed that their offices
           could only address the status of DWH after action report recommendations
           under their oversight and not the overall status of all DWH recommendations.




www.oig.dhs.gov                                 3                                        OIG-14-42

                                   OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security


             Figure 1. USCG Offices Responsible for Deepwater Horizon After Action
                       Report Recommendation Oversight
                                   Director of Incident Management and Preparedness Policy
                                                            CG-5RI




                                                                    Office of Crisis and Contingency Planning and Exercise Policy
             Office of Marine Environmental Response Policy
                                                                                               CG-CPE
                                CG-MER
                                                                                           Oversight of CPS


            Policy Development 
         International Spill
                          Exercise , Evaluation,
                 CG-MER-1
                 Coordination
                                   and Analysis
             Recommendation
                 CG-MER-2
                                       CG-CPE-3
                                         Recommendation
                                USCG After Action 

                 Follow-up

                                             Follow-up
                                      Program 


                             Industry and
                              Interagency
                             Coordination
                               CG-MER-3
                           Recommendation
                               Follow-up
             Source: DHS OIG analysis of USCG information

           Although the CGAAP falls under the Office of Incident Management and
           Preparedness Policy, some recommendations in DWH after action reports
           required other programs to take corrective actions. For example, 13 of the
           recommendations from one of the USCG’s after action reports, BP Deepwater
           Horizon Oil Spill Incident Specific Preparedness Review (ISPR), were directed to
           the USCG’s Office of Governmental and Public Affairs, but personnel from the
           office said that they did not address the recommendations in that report. They
           said their office only addressed report recommendations in the USCG’s Strategic
           Lessons Learned report, as assigned by the USCG’s Office of Incident
           Management and Preparedness Policy. A comparison of the recommendations in
           these two reports showed similarities between the recommendations related to
           governmental and public affairs.

           Responding to and Tracking Recommendations

           The USCG informally tracked five of seven after action reports issued after the
           DWH incident. The Deepwater Horizon Strategic Lessons Learned After Action
           Report was tracked in CPS, and the USCG’s investigation of the Deepwater
           Horizon mishap was entered into the Marine Information for Safety and Law
           Enforcement (MISLE) system, as required by USCG policy.




www.oig.dhs.gov                                                 4                                                           OIG-14-42

                              OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           CG-MER officials said they did not have a formal process to respond to DWH
           after action report recommendations, nor were recommendations tracked in a
           central database. The absence of a formal process and a centralized system of
           record hindered the USCG’s ability to determine whether its corrective actions
           addressed the DWH recommendations.

           To respond to recommendations, CG-MER officials described an informal process
           in which staff reviewed the five after action reports for which they were
           responsible, determined which recommendations were relevant to their office’s
           mission, and through discussion with subject matter experts, decided on the
           appropriate corrective actions. According to CG-MER, it did not enter
           recommendations from the five reports it oversees into a formal system of
           record, such as CPS. The office first grouped the DWH recommendations from
           the five reports into like categories and then placed the categorized
           recommendations under three initiatives—People, Policy, and Equipment.1 By
           rolling up the recommendations into more general initiatives, CG-MER officials
           said they could not track the corrective actions back to the more specific
           recommendations. For example, officials were able to state that corrective
           actions were aimed at improving the USCG’s marine environmental response
           program performance and its leadership. However, they had difficulty providing
           documentation to support that corrective actions corresponded to and
           addressed the original recommendations because, to identify the
           recommendations, staff had to deconstruct the overarching initiatives.

           Based on our review of all seven after action reports, documentation provided
           by the USCG, and other information, we identified that not all corrective actions
           addressed after action report recommendations. Through our review of the after
           action reports, we first determined that the USCG was fully or partially
           responsible for addressing 534 of 549 recommendations. According to USCG
           officials, they had completed 127 of the 534 recommendations. USCG
           documentation also showed that 247 recommendations were in progress, which
           we did not verify because of time limitations. We reviewed documentation
           provided by the USCG and other information and determined that 51
           (40 percent) of these 127 corrective actions addressed the recommendations.
           For the remaining 76 recommendations, the USCG provided incomplete
           documentation, potentially because it had to deconstruct initiatives into original
           recommendations to respond to our request. Therefore, the team could not
           determine whether the corrective actions addressed these recommendations.

   1
    According to the USCG, it used this process to develop the USCG’s Marine Environmental Response
   Mission Performance Plan, a July 2012 formal report to Congress.


www.oig.dhs.gov                                      5                                                OIG-14-42

                           OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           According to CG-CPE, CPS could be used as a central system of record to track
           recommendations from all DWH after action reports and to task corrective
           actions to USCG units, but only one of the seven DWH after action reports had
           been entered into the system. Instead, the USCG used CPS for certain after
           action reports, such as those created at the field level by USCG units involved in
           contingency preparedness and response. According to the USCG, headquarters-
           level after action reports were not entered into CPS. USCG guidance at the time
           of the DWH incident neither excluded nor mandated entering higher-level
           reports, such as those we reviewed. This guidance did require submitting an
           after action report to CPS within 21 days of a unit’s participation in an actual
           operation, an exercise, or a training event. However, officials from one USCG
           program office said that they did not enter after action reports into the system
           because it was “only for exercises.” One DWH ISPR recommended a review of
           the USCG’s Corrective Action Program to ensure that lessons learned from all
           incidents and exercises were captured and communicated throughout the USCG
           and the response community. At the time of our audit, according to the USCG,
           the five DWH after action reports it was informally tracking were not entered
           into CPS, the system of record for the CGAAP. After the conclusion of fieldwork,
           USCG officials reported that these five reports were now located in CPS; we did
           not verify this statement.

           According to USCG officials, the only DWH after action report in CPS was the May
           2011 Deepwater Horizon Strategic Lessons Learned After Action Report, which
           included 227 recommendations, and which was created to identify challenges
           and corrective actions. According to CG-CPE, it prioritized the report’s top 50
           recommendations, grouped them into five initiatives, and chartered working
           groups to determine and implement the corrective actions. These were the only
           DWH report recommendations that the CGAAP tracked using CPS; however, only
           personnel in CG-CPE had access to them, which limited information sharing.
           According to CG-CPE, once the recommendations were implemented, the
           information would be released for general USCG use. After the conclusion of
           fieldwork, USCG officials reported that Quarterly Progress Reports for the top 50
           recommendations were replicated in CPS to provide status information; we did
           not verify this statement.

           The USCG used MISLE to track recommendations from its joint DWH
           investigation with the Bureau of Ocean Energy Management, Regulation and
           Enforcement. Use of MISLE is required to support the USCG’s marine safety,
           security, environmental protection, and law enforcement programs. However,
           according to our May 2013 report, Marine Accident Reporting, Investigations,
           and Enforcement in the United States Coast Guard, OIG-13-92, the USCG could


www.oig.dhs.gov                                 6                                        OIG-14-42

                           OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           not ensure that all corrective actions were addressed because there were not
           complete processes and dedicated resources to track, review, and implement
           recommendations for all investigations. In response, the USCG planned to
           establish a national policy to track all actions on safety recommendations and
           update MISLE to carry out this requirement.

           Integrating all USCG after action reports into one system of record could
           increase visibility into the lessons learned process and help the USCG ensure that
           its corrective actions address recommendations from DWH after action reports.

           Addressing Past Recommendations

           According to the DWH ISPR report, the USCG had not completed many
           recommendations from ISPRs of two previous oil spills and, as a result, the same
           issues caused difficulties for the USCG during the DWH incident. The DWH ISPR
           also reported that had some corrective actions been implemented, they would
           have had a positive impact on the response to the incident.

           In discussing the application of lessons learned from prior oil spill responses and
           exercises, the DWH ISPR specifically mentions six prior recommendations that
           were not completed. For example, the ISPR of the 1996 SS Cape Mohican oil spill
           in the San Francisco Bay included recommendations to train USCG responders
           thoroughly, develop a decision-making process for sensitive area protection, and
           set up a joint information center at the first indication of moderate media
           interest. According to the DWH ISPR, these recommendations were not
           completed. The DWH ISPR also discusses lessons learned and associated
           recommendations from the ISPR following the 2007 M/V Cosco Busan oil spill in
           the San Francisco Bay that were not completed.

           Table 1 shows similar recommendations regarding outreach to local entities,
           stakeholders, and government officials that were included in all three ISPRs.
           According to the DWH ISPR, this recommendation was not completed following
           either of the two earlier ISPRs; a similar recommendation was included in the
           DWH report.




www.oig.dhs.gov                                 7                                        OIG-14-42

                             OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


           Table 1. Comparison of USCG ISPR Recommendations 

                                  Recommendation                               Report        Year of
                                                                                            Incident
            Area Committees need to engage these local area entities,
                                                                              MV Cape
            encourage their participation in planning meetings, and
                                                                             Mohican Oil     1996
            exercise with them, occasionally filling Incident Command
                                                                              Spill ISPR
            System positions with local area resources.
            Committee chairs [should] conduct outreach and aggressively      MV Cosco
            pursue participation by stakeholders and trustees and             Busan Oil
            communicate the importance of their participation in the         Spill in San    2007
            Area Committee.                                                   Francisco
                                                                                 Bay
            The USCG should undertake an aggressive outreach program              BP
            to engage State Governors, parish, county, and city officials,   Deepwater
                                                                                             2010
            tribes, and emergency managers and local non-governmental        Horizon Oil
            organizations in the Area Contingency Plan planning process.      Spill ISPR
           Source: DHS OIG based on USCG information

           Conclusion

           The USCG had difficulty tracking the status of specific recommendations
           contained in after action reports prepared in response to the DWH oil spill.
           Because of challenges to the CGAAP, the USCG could not provide reasonable
           assurance that corrective actions for the DWH incident addressed the
           recommendations in after action reports. According to the DWH ISPR, the USCG
           also could not be certain that it implemented corrective actions to address
           recommendations from past oil spill ISPRs. Without such improvements to the
           CGAAP, the USCG may have difficulty overcoming challenges to its oil spill
           response and may be missing opportunities to enhance its response to future oil
           spills.

           Recommendations

           We recommend that the Assistant Commandant for Response Policy (CG-5R):

           Recommendation #1:

           Identify or develop a process to ensure that USCG initiatives and subsequent
           corrective actions, especially those developed as a result of recommendations
           from DWH after action reports, can be tracked back to individual
           recommendations.



www.oig.dhs.gov                                   8                                           OIG-14-42

                            OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Recommendation #2:

           Evaluate the use of CPS or other USCG systems of record for tracking
           recommendations and corrective actions from oil spill response after action
           reports. Consider expanding the use of the identified system of record to all
           USCG after action reports.

           Management Comments and OIG Analysis

           The USCG provided comments on the draft of this report. Appendix B includes a
           copy of the response in its entirety. The USCG also provided a separate
           document with technical comments to our report. We reviewed the technical
           comments and made minor changes in the report when appropriate.

           Management Comments to Recommendation 1. The USCG concurred with the
           recommendation. The USCG noted that, following response operations across
           the full range of its statutory missions, it may receive a variety of reports from
           governmental and non-governmental entities. According to the USCG, these
           reports may contain a multitude of suggested recommendations, and it is its
           prerogative to determine which reports and suggested recommendations it will
           consider, select, prioritize, and track.

           To clarify its policy, the USCG said that it plans to include the following wording
           in an upcoming revision of the instruction, COMDTINST 3010.19C, Coast Guard
           After Action Program, to be implemented by December 31, 2014:

                  In addition to the development and processing of Coast Guard After
                  Action reports described in this instruction, the Coast Guard may charter
                  or receive other post-incident reports, such as Incident Specific
                  Preparedness Reviews (ISPR), Federal On-Scene Coordinator Reports
                  (FOCS), National Incident Commander (NIC) Reports, reports from other
                  agencies, and/or industry group reports. The Coast Guard Headquarters
                  office with policy oversight responsibility for the contingency that
                  generated these reports will have responsibility to determine and
                  prioritize which of the report(s) recommendations the Coast Guard will
                  act on, and to track the accomplishment of the selected
                  recommendations using the Contingency Preparedness System (CPS). The
                  Office of Contingency Preparedness and Exercise Policy (CG-CPE) can
                  advise the office with policy oversight responsibility on methodologies for
                  prioritization of recommendations and for tracking within CPS the
                  resolution of recommendations selected for pursuit.


www.oig.dhs.gov                                  9                                         OIG-14-42

                           OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           OIG Analysis. We consider the USCG’s proposed corrective actions to be
           responsive to the recommendation. The recommendation is considered resolved
           and will remain open until the USCG provides us with the updated COMDTINST
           3010.19C, Coast Guard After Action Program.

           Management Comments to Recommendation 2. The USCG concurred with the
           recommendation. The USCG said it is already considering how CPS can be used
           to capture lessons learned beyond those generally captured in contingency
           preparedness exercises and response operations. According to the USCG, CG-CPE
           is fully engaged with the USCG Strategic Management Directorate as a member
           of the USCG Knowledge Management Work Group. A key element of this group’s
           work is to explore the broader nature of lessons learned as an element of overall
           USCG knowledge management.

           According to the USCG, its policy was strengthened in the November 2012
           release of COMDTINST 3010.19C, Coast Guard After Action Program, which
           specified the development of USCG action reports for any response operations
           characterized as Type 1 or Type 2 events, as described in Incident Command
           System publications, or for Type 3 incidents with significant lessons learned.

           The USCG also said that, recognizing it may receive a variety of reports from
           other governmental and non-governmental entities following a major event, it
           plans to include the following wording in an upcoming revision to COMDTINST
           3010.19C, Coast Guard After Action Program, to be implemented by December
           31, 2014:

                  In addition to the development and processing of Coast Guard After
                  Action reports described in this instruction, the Coast Guard may charter
                  or receive other post-incident reports, such as Incident Specific
                  Preparedness Reviews (ISPR), Federal On-Scene Coordinator Reports
                  (FOCS), National Incident Commander (NIC) Reports, reports from other
                  agencies, and/or industry group reports. The Coast Guard Headquarters
                  office with policy oversight responsibility for the contingency that
                  generated these reports will have responsibility to determine and
                  prioritize which of the report(s) recommendations the Coast Guard will
                  act on, and to track the accomplishment of the selected
                  recommendations using the Contingency Preparedness System (CPS). The
                  Office of Contingency Preparedness and Exercise Policy (CG-CPE) can
                  advise the office with policy oversight responsibility on methodologies for
                  prioritization of recommendations and for tracking within CPS the
                  resolution of recommendations selected for pursuit.


www.oig.dhs.gov                               10                                        OIG-14-42

                          OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


           OIG Analysis. We consider the USCG’s proposed corrective actions to be
           responsive to the recommendation. The recommendation is considered resolved
           and will remain open until the USCG provides us with the updated COMDTINST
           3010.19C, Coast Guard After Action Program.
           �                             �




www.oig.dhs.gov                             11                                   OIG-14-42

                          OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
   to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   This report provides the results of our work to determine whether the USCG’s oversight
   of recommendations made in DWH oil spill after action reports was effective for
   tracking corrective actions.

   Our initial audit objective was to determine whether the USCG had implemented DWH
   after action report recommendations. However, we were unable to determine whether
   the recommendations had been addressed because of inconsistencies in the USCG’s
   process to track progress. Therefore, we sought to understand how the USCG tracked
   after action report recommendations and why the USCG had difficulty in providing
   supporting documentation for recommendations it said were completed.

   We reviewed 7 reports (see appendix C) and determined that 534 of 549
   recommendations required USCG involvement to resolve. According to the USCG, it had
   completed 127 of the 534 recommendations. We analyzed supporting documentation
   for the 127 recommendations provided by the USCG as well as documentation obtained
   by the team from the USCG website. We conducted interviews with program personnel
   at USCG headquarters in Washington, DC, to help us understand the recommendation
   tracking and oversight process.

   We conducted this performance audit between January 2013 and July 2013 pursuant to
   the Inspector General Act of 1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objectives. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objectives.




www.oig.dhs.gov                               12                                       OIG-14-42

                                    OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report


                  U.S. Departmonto~·                    Conumut1.hmt                              2100 Manin Luther King Jr Avo. S.E..
                  Homeland Security                     Uni ted Statc:s Coa:st Guard              Stop 76ta
                                                                                                  Washington, DC 20593
                  United States                                                                   StotT Symbol: CG-823
                  Coast Guard                                                                     Phone: (202) 372-JSJJ
                                                                                                  Fax: (202) 372-&40 1


                                                                                                  7501

                                                                                                  DEC 1 8 2013
                  MEM~~U}f
                  From:   fp\J~kc                                                      Reply to   Audit Manager
                          COMDT (CG-8)                                                 Attn of:   Mark Kulwicki
                                                                                                  (202) 3 72-3533
                  To:     Anne L. Richards
                          Assistant Inspector General for Audits
                          Department of Homeland Security (DHS)

                  Subj:   DHS OlG DRAFT REPORT: "THE USCG'S OVERSIGHT OF
                          RECOMMENDATIONS FROM DEEPWATER HORIZON AFTER ACTION
                          REPORTS"

                  Ref:    (a) OIG Project No. 13-057-AUD-USCG, dated November 18, 2013

                  I. This memorandum transmits the Coast Guard's response to the draft report identified in
                  reference (a).

                  2. The Coast Guard concurs with the two recommendations in the draft report. Our response
                  contained in enclosure (I) also highlights the extensive prioritization and implementation effort
                  taken to address the most significant lessons highlighted in the seven Deepwater Horizon lessons
                  learned reports. This effort of taking corrective actions is not fully explained in the OIG report.
                  The report is narrowly focused on how the Coast Guard processed recommendations rather than the
                  outcome of actions taken on the highest priority recommendations.

                  3. If you have any questions, my point of contact is Mr. Mark Kulwicki who can be reached at
                  202-372-3533.

                                                                      #

                  Enclosure: (I) USCG response




www.oig.dhs.gov                                                     13                                                                   OIG-14-42

                                    OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security




                  UNITED STATES COAST GUARD RESPONSE FOR DHS OIG DRAFT REPORT:
                  THE USCG'S OVERSIGHT OF RECOMMENDATIONS FROM DEEPWATER
                  HORIZON AFTER ACTION REPORTS (OIG PROJECT NO. 13·057-AUD·USCG)

                  I. The U. S. Coast Guard (USCG) is always ready to foster maritime safely, maritime security,
                     and maritime stewardship through the performance of its eleven statutory missions. Through
                     its policies and prevention activities, the USCG ensures the safety of tens of thousands of
                     mariners, millions o f passengers on ferries and other vessels, and tens of millions of
                     recreational boaters. At the same time, the USCG prevents, prepares and responds to threats
                     to the marine environment from oil and chemical spills. The USCG is committed to the
                     continuous improvement process by assessing and improving our performance across these
                     missions.

                  2. The USCG appreciates the efforts of the DHS Office of Inspector General audit team that
                     examined the Service's oversight of recommendations for improved response in the wake of
                     the Deepwater Horizon (DWH) oil spill. The USCG acknowledges and generally concurs
                     with the audit team's recommendations that its system and process for tracking and
                     documenting lessons learned recommendations can be improved. We also concur that the
                     USCG could have done a better job documenting the linkage between each individual
                     recommendation and the initiatives pursued by the Service to most effectively strengthen its
                     spill response program. Implementation of the OIG's recommendations may help the USCG
                     enhance its lessons learned process, improving its future readiness to perform maritime
                     safety, security, and stewardship missions.

                  3. The USCG is concerned that the overarching message of the O!G report is missing key
                     components of the Service's approach and achievements in this case. The OIG's audit
                     focused on method over outcome. The report concluded that the USCG had not effectively
                     employed lessons learned from DWH because it did not track and document the outcome of
                     each individual recommendation. Seven independent groups published reports following the
                     DWH response. These seven repmts yielded a collective 549 recommendations including:
                     redundant themes, corrective actions outside of USCG purview, and unfeasible suggestions.
                     To focus on the highest priorities, the USCG employed a strategic process, which enabled the
                     service to prioritize and execute significant improvements in the spill response program. By
                     focusing on the need to individually track all549 recommendations from cradle to grave, the
                     OIG report overlooked the solution-oriented process the USCG employed to I) validate
                     feasibility and eliminate duplication, and 2) prioritize, assign, and track the most viable
                     recommendations to closure.

                  4. The OIG report infers that all 549 recommendations from the seven after action reports are
                     valid and justified action by the USCG; the USCG does not concur with that supposition.
                     The audit does not recognize the USCG's authority, obligation and expertise to detennine the
                     validity, applicability, and feasibility of each recommendation. Using a tiered analysis, the
                     USCG reviewed all 549 recommendations and produced the Deepwater Horizon Strategic
                     Lessons Learned After Action Report, which narrowed the list of recommendations to 250
                     USCG-specific action items. The Vice Commandant and Deputy Commandant for
                     Operations then charted a senior-level workgroup to further prioritize the recommendation
                     list and ultimately identify the 50 most viable for targeted action. Simultaneously, the USCG
                     prioritized the Marine Environmental Response (MER) mission-specific recommendations
                     from the seven DWH studies into three initiatives that highlighted "People, Policy and


                                                                                                ENCLOSURE (I)




www.oig.dhs.gov                                                14                                                    OIG-14-42

                                    OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security




                     Equipment" improvements within the MER program. These three focus areas became the
                     framework of the MER Mission Performance Plan Report to Congress issued by the
                     Commandant.

                  5. The USCG's effort to address DWH lessons learned far surpassed any previous Service
                     analysis and engagement to date in pursuing post-incident corrective actions. The overall
                     process significantly enhanced nationwide MER preparedness and set a benchmark for future
                     information and knowledge management during a complex contingency in the maritime
                     domain. The USCG agrees that there is room for improvement in the administrative tracking
                     of individual lessons learned following a response incident. However, it is critical to
                     acknowledge the strategic process followed by the USCG to consolidate, prioritize and
                     implement the most valuable lessons from the DWH response into meaningful results.

                  RECOMMENDATIONS AND USCG RESPONSES

                  We recommend that the Assistant Commandant for Response Policy (CG-SR):

              Recommendation #1: Identify or de velop a process to ensure that USCG initiatives and
              subsequent corrective actions, especially those developed as a result ofrecommendations
              from DWH after action reports, can be tracked back to individual recommendations.

                  USCG response: Concur. The USCG has the potential to receive a variety ofreports from
                  governmental and non-governmental entities following response operations across the full
                  range of USCG statutory missions. These reports may contain a multitude of suggested
                  recommendations, and it is the USCG's prerogative to determine which of these reports and
                  suggested recommendations will or will not be considered, selected, prioritized, and tracked.

                  To clarify this position in USCG policy, the following wording is being prepared for inclusion in
                  an upcoming revision to COMDTINST 3010.19C, Coast Guard After Action Program:

                         "In addition to the developme111 and processing ofCoast Guard After
                         Action Reports de.scribed in this instruction, the Coast Guard may charter
                         or receive other post-incident reports, such as Incident Specific
                         Prepal'edness Reviews (ISPR}, Federal On-Scene Coordinator Reports
                         (FOSC), National Incident Commander (NIC) Reports, reports from other
                         agencies, and/o,- industry group l'eports. The Coast Guard Headqual'ters
                         office with policy oversight responsibility for the contingency that
                         generated these reports will have responsibility to detel'mine and
                         prioritize which ofthe report(s) recommendations the Coast Guard will
                         act on, and to track the accomplishment ofthe selected recommendations
                         using the Contingency Preparedness System (CPS). The Office of
                         Contingency Preparedness and Exe,-cise Policy (CG-CPE) can advise the
                         office with policy oversight responsibility on methodologies for
                         prioritization ofrecommendations and jol' tracking within CPS the
                         resolution ofrecommendations selected for pu,-suit. "

                  This policy change will be implemented by December 31, 2014.



                                                             Page 2 of3




www.oig.dhs.gov                                                 15                                                    OIG-14-42

                                    OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security




                  Rtcommcndation #2: Evaluate the use of CPS or other USCG systems ofrecordfor tracking
                  recommendations and corrective actions from oil spill response after action
                  reports. Consider expanding the use of the identified system ofrecord to all
                  USCG after action reports.

                  USCG response: The USCG is already considering how its Contingency Preparedness System
                  (CPS) can b e used to capture lessons learned information beyond that generally captured in
                  contingency preparedness exercises and response operations. The Office of Contingency
                  Preparedness and Exercise Policy (CG-CPE) is fully engaged with the USCG Strategic
                  Management Directorate (CG-095) as a member of the USCG Knowledge Management Work
                  Group (KMWG). A key element of the KM\VG's work is to explore the broader nature of
                  lessons learned as an element of overall USCG knowledge management.

                  USCG policy was strengthened in Lhe November 2012 release of COMDTINST 30 I 0. 19C, Coast
                  Guard After Action Program, to specify the development of USCG action reports for any
                  response operation bearing the characteristics of a Type I or Type 2 event as described in
                  Incident Command System publications, or for Type 3 incidents where there are significant
                  lessons learned.

                  Additionally, recognizing the USCG may receive a variety of reports from other governmental
                  and non-governmental entities following a major event, the following wording is being prepared
                  for inclusion in an upcoming revision to COMDTINST 30 I 0.19C, Coast Guard After Action
                  Program:

                          "In addition to the development and processing of Coast Guard After
                         Action Reports described in this instruction, the Coast Guard may charter
                         or receive other post-incident reports, such as Incident Specific
                         Preparedness Reviews (JSPR), Federal On-Scene Coordinator Reports
                         (FOSC), National Incident Commander (NIC) Reports, reports/rom other
                         agencies, and/or industry group reports. The Coast Guard Headquarters
                         office with policy oversight responsibility for the contingency that
                         generated these reports will have responsibility lo determine and prioritize
                         which of the rcporl(s) recommendations the Coast Guard will act on, and
                         to track the accomplishment of the selected recommendations using the
                         Contingency Preparedness System (CPS). The Office of Contingency
                         Preparedness ar1d Exercise Policy (CG-CPE) ca11 advise the office with
                         policy oversight responsibility on methodologies for prioritization of
                         recommendations and for tracking within CPS the resolution of
                         recommendations selected for pursuit."

                  This policy change will be implemented by December 31, 2014.




                                                             Page 3 of3




www.oig.dhs.gov                                                 16                                                 OIG-14-42

                            OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


   Appendix C
   Summary of Deepwater Horizon After Action Reports

             Report Title                                   Report Summary
   BP Deepwater Horizon Oil Spill     ISPRs are directed by USCG headquarters following the
   Incident Specific Preparedness     completion of the initial response phase of a specifically
   Review (ISPR)                      selected incident. This USCG-mandated report examined the
   January 2011                       effectiveness of preparedness and implementation of the
                                      response to the DWH incident in relation to the National
                                      Contingency Plan, area contingency plans, and other oil spill
                                      response plans.
   Deepwater Horizon                  This report was an effort by the USCG to leverage its lessons
   Strategic Lessons                  learned process to identify challenges and remedial actions.
   Learned After Action Report        The report focused on overarching strategic issues that have a
   May 2011                           significant and enduring effect on the USCG and its ability to
                                      perform its mission.
   Joint Industry Oil Spill           Experts in the oil industry convened this task force to work
   Preparedness and Response          cooperatively to address DWH issues. The task force
   Task Force:                        examined the industry’s ability to respond to a Spill of
   Draft Industry                     National Significance and the actual response to the DWH
   Recommendations to Improve         incident.
   Oil Spill Preparedness and
   Response
   September 2010
   Progress Report on Industry
   Recommendations to Improve
   Oil Spill Preparedness and
   Response
   November 2011
   Second Progress Report on
   Industry Recommendations to
   Improve Oil Spill Preparedness
   and Response
   November 2012
   Source: DHS OIG





www.oig.dhs.gov                                   17                                           OIG-14-42

                              OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


             Report Title                                    Report Summary
   National Incident                This report reflects the National Incident Commander’s
   Commander’s Report:              observations and recommendations related to the DWH oil spill
   MC252 Deepwater Horizon          response. This oil spill was the first time both a Spill of National
   October 2010                     Significance was declared and a National Incident Commander
                                    was designated. According to this report, these designations
                                    tested, under extreme conditions, the existing laws,
                                    regulations, policies, and procedures that govern oil spill
                                    response and fundamental principles regarding the respective
                                    roles of responsible parties and Federal, State, local, and tribal
                                    governments in oil spill response.
   On Scene Coordinator Report      The National Contingency Plan requires an On Scene
   Deepwater Horizon Oil Spill      Coordinator report that records the situation as it developed,
   September 2011                   the actions taken, the resources committed, and the
                                    challenges encountered. The Federal On Scene Coordinator is
                                    responsible for directing and coordinating oil removal actions.
   Report of Investigation into the DHS and the Department of the Interior determined that a
   Circumstances Surrounding the joint investigation of the Deepwater Horizon explosion,
   Explosion, Fire, Sinking and      sinking, and the associated loss of life was the best strategy for
   Loss of Eleven Crew Members       determining the events, decisions, actions, and consequences
   Aboard the MOBILE OFFSHORE of this marine casualty. The USCG and the Bureau of Ocean
   DRILLING UNIT DEEPWATER           Energy Management, Regulation and Enforcement conducted
   HORIZON In the GULF OF            a joint investigation, resulting in two separate reports. This
   MEXICO April 20 – 22, 2010        report contains the results of the USCG’s investigation of the
   September 2011                    DWH incident.
   DEEP WATER: The Gulf Oil          President Obama created the National Commission on the BP
   Disaster and the Future of        Deepwater Horizon Oil Spill and Offshore Drilling and directed
   Offshore Drilling                 it to determine the causes of the disaster, to improve the
   Report to the President           country’s ability to respond to spills, and to recommend
   National Commission on the BP reforms to make offshore energy production safer.
   Deepwater Horizon Oil Spill
   and Offshore Drilling
   January 2011
   Source: DHS OIG





www.oig.dhs.gov                                     18                                            OIG-14-42

                         OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


   Appendix D
   Major Contributors to This Report

   Michael Siviy, Director
   Lorinda Couch, Audit Manager
   Melissa Estrella, Program Analyst
   Juan Santana, Auditor
   Edwin Soto, Program Analyst
   Kelly Herberger, Communications Analyst
   Katrina Bynes, Independent Referencer




www.oig.dhs.gov                              19                 OIG-14-42

                            OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix E
   Report Distribution
   Department of Homeland

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Chief Privacy Officer

   United States Coast Guard

   Commandant
   Coast Guard Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                  20                        OIG-14-42

ADDITIONAL INFORMATION

To view this and any of our other reports, please visit our website at: www.oig.dhs.gov.

For further information or questions, please contact Office of Inspector General (OIG)
Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov, or follow us on
Twitter at: @dhsoig.”

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
